CERTIFICATE OF COMPLIANCE
Case No. 20-138
Caption: Donald J. Trump v. Sierra Club, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 5,543 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 19, 2021

Howard Daniels
Record Press, Inc.

Sworn to before me on
January 19, 2021
ALESSANDRA KANE
Notary Public, State of New York
No.01KA6340521
Qualified in Richmond County
~ x ~ , 2024

Notary Public

